AUGUST 3, 2012
  AUDIT REPORT




                                                      OFFICE OF AUDITS




AUDIT OF NASA GRANT AWARDED TO HUDSONALPHA
         INSTITUTE FOR BIOTECHNOLOGY




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-019 (ASSIGNMENT NO. A-12-009-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

C.F.R.       Code of Federal Regulations
GAO          Government Accountability Office
HHS          Department of Health and Human Services
NSSC         NASA Shared Services Center
OIG          Office of Inspector General
OMB          Office of Management and Budget
PMS          Payment Management System
SF           Standard Form
STEM         Science, Technology, Engineering, and Mathematics


                                                                 REPORT NO. IG-12-019
AUGUST 3, 2012




                                                                                    OVERVIEW

           AUDIT OF NASA GRANT AWARDED TO HUDSONALPHA
                    INSTITUTE FOR BIOTECHNOLOGY

                                                                                      The Issue

  NASA awards approximately $500 million in grants annually and faces the ongoing
  challenge of ensuring these grants are administered appropriately and that recipients are
  accomplishing their stated goals and objectives. In September 2011, the NASA Office of
  Inspector General reported that NASA did not have an adequate system of controls in
  place to ensure proper administration and management of its grant program and, as a
  result, some grant funds were not being used for their intended purposes. 1 As a follow-
  on to our September 2011 report, we conducted a series of audits examining particular
  NASA grants. In this report, we present the results of our review of a $1 million NASA
  grant to the HudsonAlpha Institute for Biotechnology (HudsonAlpha), a not-for-profit
  organization in Huntsville, Alabama, whose mission is to conduct genomics-based
  research to improve human health and well-being, spark economic development, and
  provide educational outreach to nurture the next generation of biotech researchers and
  entrepreneurs.

  NASA noncompetitively awarded the grant to HudsonAlpha in July 2010 pursuant to a
  congressional earmark. 2 The goal of the grant was to foster a solid foundation in genetics
  and biotechnology (collectively referred to as bioscience) for young students while
  exposing older students to emerging research, applications, and career possibilities in the
  field. The period of performance for the grant was July 1, 2010 through July 31, 2011.

  The objective of our audit was to determine whether HudsonAlpha used NASA’s grant
  funds for their intended purpose and whether the costs associated with the grant were
  allowable, reasonable, and in accordance with applicable laws, regulations, guidelines,
  and the terms and conditions of the grants. Specifically, we reviewed HudsonAlpha’s
  program performance and accomplishments, budget management and controls,
  accounting and internal control environment, and reporting.




  1
      NASA Office of Inspector General, “NASA’s Grant Administration and Management” (IG-11-026,
      September 12, 2011).
  2
      The grant resulted from a provision in H. Rep No. 111-366, at 879 (2009).



REPORT NO. IG-12-019
                                                                                          OVERVIEW



     Results

     We found that HudsonAlpha generally managed the grant in accordance with applicable
     laws, regulations, guidelines, and the terms and conditions of the grant. Specifically, we
     found that HudsonAlpha had a strong system of accounting and internal controls,
     adequately accounted for expenditures, properly managed its grant budget, and fulfilled
     the performance goals. However, we identified the following areas of concern related to
     HudsonAlpha’s management of the grant and NASA’s oversight of the grant’s closeout:

        •   HudsonAlpha calculated employee fringe benefits claims (e.g., social security;
            unemployment tax; medical, life, and disability insurance) by applying a flat rate
            against direct salaries when it should have claimed its actual fringe benefit costs
            for the employees who worked on the NASA grant. This resulted in an
            underpayment to HudsonAlpha of approximately $10,000.

        •   Neither HudsonAlpha nor the NASA Shared Services Center (NSSC)
            Procurement Division has a procedure in place to ensure that provisional indirect
            cost rates are adjusted when a new provisional, predetermined, or final rate is
            approved. As a result, HudsonAlpha continued to charge the provisional rate to
            the grant, resulting in $44,567 in questioned costs.

        •   HudsonAlpha did not timely submit its required final financial report to NASA,
            and the NASA contractor responsible for grant closeout did not follow up with
            HudsonAlpha to ensure receipt of the report.

        •   Because HudsonAlpha did not timely submit the final financial report NASA did
            not timely proceed through the closeout process. Moreover, once we announced
            our audit the closeout process was suspended. At the time of suspension, NASA
            had not taken several key steps, including deobligating $17,596 in unspent funds
            and blocking HudsonAlpha’s ability to draw down additional funds.

     Management Action

     We recommended that the Assistant Administrator for Procurement require grant officers
     to obtain indirect cost rate agreements for each grant year if, at the time of award, the
     grantee has a negotiated rate that is subject to adjustment; implement or enhance training
     programs for procurement personnel to develop or reinforce understanding of the proper
     usage of negotiated indirect cost rates; and discontinue the practice of suspending the
     closeout process until audits have been completed.

     In addition, we recommended that the Executive Director of the NSSC remedy the
     difference between the amount of fringe benefits claimed and HudsonAlpha’s actual
     costs; remedy the indirect costs claimed in excess of HudsonAlpha’s approved final
     indirect cost rate; establish procedures to analyze indirect costs being claimed against the


ii                                                                           REPORT NO. IG-12-019
OVERVIEW



  grantees’ negotiated indirect cost rate agreement; ensure that grantees notify NASA of
  changes in their negotiated indirect cost rates and submit claim adjustments when
  warranted; and establish controls to identify when and why a grant is not proceeding
  through the closeout process in a timely manner so that necessary corrective actions can
  be taken.

  In response to a draft of our report, the Assistant Administrator for Procurement
  concurred with the three recommendations addressed to him, stating that the NASA
  Grant and Cooperative Agreement Handbook (Grant Handbook) will be revised to
  require grant officers to obtain negotiated indirect cost rate agreements for grantees
  whose rates are subject to adjustment; an existing training course will be revised to add
  material related to negotiated indirect cost rates for grants; and he will advise the NSSC
  to review its local closeout procedures and remove any requirements or guidance that
  conflicts with the Grant Handbook. We consider these proposed actions responsive to
  our recommendations. Accordingly, the recommendations are resolved and will be
  closed upon verification of the Agency’s actions.

  The Executive Director of the NSSC concurred with three of our recommendations
  addressed to him, stating that the NSSC will verify that HudsonAlpha’s final financial
  report (Standard Form (SF) 425) reflects all costs incurred and the applicable final
  negotiated indirect rates and, if necessary, will require HudsonAlpha to submit a revised
  SF 425. Additionally, the NSSC will direct the closeout contractor to adjust its standard
  closeout procedures so that final SF 425s will be obtained and dispositioned only after
  final indirect rates have been determined for grants and cooperative agreements for which
  provisional indirect rates were used. We consider these proposed actions responsive to
  our recommendations. Accordingly, the recommendations are resolved and will be
  closed upon verification of the Agency’s actions.

  The Executive Director of NSSC partially concurred with our recommendation to
  establish controls to identify when and why a grant is not timely proceeding through the
  closeout process and to update the NSSC Service Delivery Guide accordingly. The
  Executive Director stated that the closeout contractor has developed a weekly report to
  identify any grant or cooperative agreement with past due deliverables, but stated that the
  NSSC is not planning to update the related service delivery guide because the closeout
  process has not changed as a result of adding this control. Because we believe controls
  must be documented to ensure they are consistently performed, we are leaving this
  recommendation unresolved pending further discussion with the Agency.

  The Executive Director of the NSSC did not concur with our recommendation to ensure
  that grantees notify NASA of changes in their negotiated indirect cost rates and submit
  adjustments when warranted. He stated that grantees are required to submit indirect cost
  rates to their cognizant Federal audit agency, which in turn is responsible for sending
  negotiated rate agreements to the other Federal agencies that require this information.
  However, he stated that the NSSC will provide each cognizant agency with current points
  of contact and mailing information to ensure the NSSC receives copies of the rate
  agreements. In addition, the Assistant Administrator for Procurement agreed to require


REPORT NO. IG-12-019                                                                            iii
                                                                                       OVERVIEW



     grant officers to obtain grantees’ negotiated indirect cost rate agreements. We believe
     these actions satisfy the intent of our recommendation and therefore consider the
     recommendation resolved. We will close the recommendation upon verification of the
     proposed actions.

     The Agency’s comments in response to a draft of this report are reprinted in Appendix B;
     the grantee’s comments are in Appendix C.




iv                                                                         REPORT NO. IG-12-019
AUGUST 3, 2012




                                                       CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 2

  RESULTS
      Findings and Recommendations__________________________ 4

  APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls ____________________________ 17
      Prior Coverage ______________________________________ 18

  APPENDIX B
      Agency Comments ___________________________________ 19

  APPENDIX C
      Grantee Comments __________________________________ 23

  APPENDIX D
      Report Distribution ___________________________________ 24




REPORT NO. IG-12-019
AUGUST 3, 2012




                                                                               INTRODUCTION


Background

  NASA awards approximately $500 million in grants annually and faces the ongoing
  challenge of ensuring that these funds are administered appropriately and grantees are
  accomplishing the grants’ stated objectives. In September 2011, the NASA Office of
  Inspector General reported that NASA did not have an adequate system of controls in
  place to ensure proper administration and management of its grant program and, as a
  result, some grant funds were not being used for their intended purposes. 3 As a
  follow-on to our September 2011 report, we are conducting a series of audits examining
  particular NASA grants. In this report, we present the results of our review of a
  $1 million NASA grant to the HudsonAlpha Institute for Biotechnology (HudsonAlpha).

  NASA noncompetitively awarded a $1 million grant to HudsonAlpha in July 2010 to
  enhance kindergarten through college genetics and biotechnology education. The grant,
  which had a period of performance from July 1, 2010, through July 31, 2011, was a
  congressional earmark directed to the Marshall Space Flight Center for this purpose. 4
  HudsonAlpha’s specific plans for this grant were to provide education in genetics and
  biotechnology (collectively referred to as bioscience) to school age children and teachers
  from elementary school to the college level.

  Founded in 2005, HudsonAlpha is a not-for-profit organization in Huntsville, Alabama,
  that provides educational outreach to nurture the next generation of biotech researchers
  and entrepreneurs, as well as to create a biotech literate public. HudsonAlpha’s
  educational outreach goals are to:

        •    educate the students, teachers, and citizens of Alabama about the impact of
             biotechnology on daily life;

        •    inspire Alabama students through hands-on modules, in-depth classroom and
             summer experiences, and distance learning opportunities;

        •    inform Alabama educators and students regarding biotechnology as a field with
             challenging and rewarding career opportunities across a range of skill levels; and

        •    assist educators through biotechnology training, curriculum, and teaching
             materials.

  3
      NASA Office of Inspector General, “NASA’s Grant Administration and Management” (IG-11-026,
      September 12, 2011).
  4
      The grant resulted from a provision H. Rep No. 111-366, at 879 (2009).



REPORT NO. IG-12-019                                                                               1
                                                                                                  INTRODUCTION



    The grant funds paid for the development of hands-on science learning opportunities for
    students, engagement of high school and college students in research activities, and
    professional development opportunities for middle school and high school science
    teachers. Collectively, these activities are intended to provide opportunities to motivate
    students to consider science, technology, engineering, and mathematics (STEM) careers.

    NASA’s Office of Procurement is responsible for establishing grant policies and
    procedures. The NASA Grant and Cooperative Agreement Handbook (Grant Handbook)
    contains the policies and procedures NASA procurement, technical officers, and grantees
    must follow in the pre-award, award, post-award, and closeout phases of grant
    management. 5 The Grant Handbook serves as a reference manual and assists grantees in
    meeting their fiduciary responsibility to safeguard grant funds and ensure they use the
    funds appropriately and consistently within the terms and conditions of the award. By
    accepting the NASA award, HudsonAlpha agreed to comply with the financial and
    administrative requirements set forth in the Grant Handbook.

    The NASA Shared Services Center (NSSC) is responsible for the overall administration
    and monitoring of most NASA grants. 6 However, some functions are performed by
    personnel at the Centers or by contractors. For instance, the Technical Officer for the
    HudsonAlpha grant was located at Marshall and provided assistance to the grant officer
    at NSSC during the pre-award and post-award phases. Further, the NSSC administers the
    Agency’s contract for closeout of NASA contracts, cooperative agreements, and grants. 7


Objectives

    The overall objective of this audit was to determine whether HudsonAlpha used NASA’s
    grant funds for their intended purpose and whether the costs associated with the grant
    were allowable, reasonable, and in accordance with applicable laws, regulations,
    guidelines, and the terms and conditions of the grants. Specifically, we reviewed
    HudsonAlpha’s program performance and accomplishments; budget management and
    controls; accounting and internal control environment; and reporting.

    To accomplish our audit, we conducted interviews with the NASA grant officer, technical
    officer, representatives from NSSC and its closeout contractor, and key representatives
    from HudsonAlpha. In addition, we visited the office of HudsonAlpha to observe the

    5
        NASA Procedural Requirements 5800.1, “Grant and Cooperative Agreement Handbook,” is codified in
        the Code of Federal Regulations (C.F.R.) at Part 1260. NASA issues Grant Information Circulars and
        Grant Notices to publicize regulatory changes not yet incorporated in the current version of the Grant
        Handbook.
    6
        NASA established the NSSC in 2006 to consolidate select business activities from the Centers to reduce
        duplication of effort and overhead. The administration and monitoring of grant awards was one of the
        procurement activities transferred to the NSSC.
    7
        The NSSC Procurement Division’s “Agency-Wide Contract Closeout Services” outlines the closeout
        process and the responsible party for each action in the process.



2                                                                                        REPORT NO. IG-12-019
INTRODUCTION



  work completed with the grant funds and to document accounting, procurement, and
  project management processes and internal controls. We also reviewed laws, regulations,
  and other documentation pertinent to our review. Additional details of the audit scope
  and methodology, our review of internal controls, and prior audit coverage are in
  Appendix A.




REPORT NO. IG-12-019                                                                        3
                                                                                           RESULTS




                                          FINDINGS AND RECOMMENDATIONS

           HudsonAlpha generally managed the grant in accordance with applicable laws,
           regulations, guidelines, and the terms and conditions of the grant. Specifically, we
           found that HudsonAlpha had a strong system of accounting and internal controls,
           adequately accounted for expenditures, properly managed its grant budget, and
           fulfilled the performance goals. However, we identified several areas in which
           NASA and the grantee could improve their internal controls and grant
           administration. Specifically, we found that HudsonAlpha did not claim
           reimbursement for fringe benefits or indirect costs in accordance with applicable
           agreements and did not timely submit the required final financial report to NASA
           officials. We also identified weaknesses in NASA’s oversight of the grant closeout
           process.


Program Performance and Accomplishments

    The goal of the grant was to form a solid bioscience foundation for young students while
    exposing older students to emerging research, applications, and career possibilities within
    the field. To determine whether the grantee met the goal of the grant, we interviewed
    HudsonAlpha personnel and NASA’s Technical Officer and reviewed the final
    Educational Activity Report submitted by the grantee and associated supporting
    documentation.

    HudsonAlpha used NASA’s grant funds to further several initiatives. First, it designed
    and installed an interactive exhibit entitled “Cells! Life at a Pond” for Sci-Quest, a hands-
    on science center in Huntsville, for elementary school aged children. The exhibit, which
    opened in March 2011, highlighted the various forms of cellular life present in a pond
    environment, with a focus on bacterial, plant, and animal cells. Since its opening, over
    60,500 visitors have explored the exhibit.

    Second, HudsonAlpha refined previously released biotechnology lesson modules for
    middle school and high school students. HudsonAlpha developed 140 sets of the eight-
    lesson module, “Genetics and Biotechnology,” and associated activities for seventh
    graders, and distributed them to 11 Alabama Math, Science, and Technology Initiative
    sites across the state. The module blended hands-on laboratory techniques with Alabama
    state curriculum requirements. For the high school level, HudsonAlpha developed
    genetic and biotechnology lab kits that reinforce key concepts taught in class and
    introduce students to current and future applications in the field. According to
    HudsonAlpha officials, the number of students using the high school kits increased
    almost 500 percent from 2,100 students during the 2009-2010 school year to 10,300
    students for the 2010-2011 school year.



4                                                                           REPORT NO. IG-12-019
RESULTS



  Third, HudsonAlpha provided a summer internship program for high school,
  undergraduate, and graduate students to increase student exposure to career opportunities
  in biotechnology, both from academic and industrial perspectives. Over 250 applications
  were received each year for the internship program held in the summers of 2010 and
  2011; however, internships were only available for 23 and 19 students, respectively.
  According to HudsonAlpha, four of the students were offered full-time positions by
  private companies after completion of the internship program.

  Finally, HudsonAlpha offered a two-week summer genetic teacher academy for Alabama
  high school life science educators, which provided training by using hands-on modules to
  help the educators become comfortable discussing genetic concepts and terminology with
  students, as well as the ethical, social, and legal issues associated with these concepts.
  During the summers of 2010 and 2011, 16 and 20 educators attended, respectively. At
  the conclusion of the program, each educator received a genetics and biotechnology
  toolkit that included a number of laboratory activities and supporting resources related to
  genetics. Many of the items in the toolkit are reusable so the activities can be shared with
  multiple classes.

  Overall, we concluded that HudsonAlpha met the performance goals of the NASA grant.


Budget Management and Control

  According to the Grant Handbook, the budget plan is the financial expression of the
  project or program as approved during the award process. NASA assumes no
  responsibility for budget overruns and recipients may spend grant funds without strict
  adherence to individual allocations within the proposed budgets. However, recipients
  must comply with prior approval requirements for acquisition of property, awarding of
  subcontracts, and certain revisions to budget and program plans. In addition, the grant
  award may restrict the transfer of funds among direct cost categories or programs,
  functions, and activities for NASA awards that exceed $100,000 and when the
  cumulative amount of such transfers exceeds or is expected to exceed 10 percent of the
  total approved budget. While our comparison of the amounts expended in each general
  ledger category to the approved budgets disclosed some variation, none of the variations
  required prior approval.


Accounting and Internal Controls

  According to the Grant Handbook, grant recipients are required to establish and maintain
  accounting and internal control systems to account for funds awarded to them. We
  reviewed HudsonAlpha’s most recent single audit reporting package to determine
  whether it reported any material weaknesses in HudsonAlpha’s accounting and internal




REPORT NO. IG-12-019                                                                             5
                                                                                                          RESULTS



    control system that could affect the grant. 8 We also interviewed HudsonAlpha’s
    employees responsible for payroll, purchasing, and accounts payable and observed
    accounting activities.

    We found that HudsonAlpha had knowledgeable and experienced staff responsible for
    the areas we reviewed. We also found that financial duties were properly segregated
    among different staff members. Our review of HudsonAlpha’s policies and procedures,
    coupled with our interviews of its staff members, did not identify any reportable
    concerns.

    Single Audit. According to Office of Management and Budget (OMB) Circular A-133,
    “Audits of States, Local Governments, and Non-Profit Organizations,” June 26, 2007,
    recipients are required to have a single audit performed if they expend more than
    $500,000 in Federal funds in any given fiscal year. The Circular states that the reporting
    package must be submitted to the Federal Audit Clearinghouse within 30 days of receipt
    of the audit report or 9 months after the end of the audit period, whichever is earlier. 9

    We reviewed HudsonAlpha’s single audit report for fiscal year 2010, the most recent
    report available during our audit. The report, dated July 11, 2011, was issued within
    9 months of the grantee’s fiscal year end of December 31. The independent auditor
    issued an unqualified opinion on HudsonAlpha’s compliance for major programs and
    reported no material weaknesses or significant deficiencies in internal control over major
    programs. However, the NASA grant was not classified as a major program by the
    independent auditor and, therefore, in accordance with Circular A-133, was not tested for
    purposes of the 2010 single audit. HudsonAlpha’s single audit for fiscal year 2011 was
    in progress during our audit.

    Financial Management. According to the Grant Handbook, grantees’ financial
    management systems should provide for accurate, current, and complete disclosure of the
    financial results and records that adequately identify the source and application of funds
    for federally sponsored activities. Grantees should have effective controls over and
    accountability for all funds, property, and other assets and should adequately safeguard
    all such assets and ensure they are used solely for authorized purposes. Additionally, the
    grantee should have accounting records supported by source documentation.


    8
        According to OMB Circular A-133, the single audit reporting package consists of the financial statements
        and schedule of expenditures of Federal awards; summary of prior audit findings; auditor’s reports on the
        financial statements, internal control over financial reporting and compliance with laws and regulations,
        and a report on compliance with requirements applicable to major programs and on internal control over
        compliance for the major programs; and a Data Collection Form that summarizes the results of the single
        audit. These reports can include the identification of any related questioned cost as well as
        recommendations to the recipient for corrective action. A major program is a federally funded program
        subject to testing by the auditor.
    9
        The Federal Audit Clearinghouse operates on behalf of OMB and its primary purposes are to disseminate
        audit information, support OMB oversight and assessment of Federal award audit requirements, assist
        Federal oversight agencies in obtaining A-133 data and reporting packages, and help minimize the
        reporting burden of complying with A-133 audit requirements.



6                                                                                        REPORT NO. IG-12-019
RESULTS



  HudsonAlpha uses a commercial, off-the-shelf software package to record its financial
  operations. The software was developed for Government contractors and other project
  driven organizations to address the unique financial, regulatory, and operational needs of
  project-based firms. As such, the software tracks time, materials, overhead, and other
  expenses at the project, organization, and account level. The NASA grant was assigned a
  unique project number to separately track the expenditures and the drawdown of funds.
  We were able to compare information shown in the general ledger to the totals calculated
  from the supporting documentation and determine that the general ledger accurately
  reflected HudsonAlpha’s expenditures. We did not identify any reportable issues during
  our testing in this area.

  Grant Drawdowns. The Grant Handbook establishes procedures for NASA to make
  payments to grantees. These procedures are designed to minimize the elapsed time
  between the transfer of funds to the grantee and disbursement of funds by the grantee
  when funds are advanced.

  We compared the drawdowns to the grant expenditures recorded in the grantee’s general
  ledger and ascertained that HudsonAlpha only withdrew funds on a reimbursement
  basis. 10 As such, the grantee did not draw down funds in advance of program
  disbursements and was therefore in compliance with the Grant Handbook.

  Grant Expenditures. We reviewed a sample of HudsonAlpha’s expenditures to verify
  that the expenditures were allowable under the terms and conditions of the grant award;
  properly authorized, classified, and supported; and allocable to the grant. The
  expenditures included labor costs such as salaries for employees and summer interns;
  fringe benefits for employees; and other direct costs for travel, materials, consultants, and
  contractors. We also reviewed the indirect costs charged to the grant. HudsonAlpha
  claimed a total of $982,406 against the grant, of which we tested $565,133 or
  57.5 percent.

          Personnel Expenditures. Four individuals charged time to this grant over 14
  months (the 13-month grant period and the preceding month as permitted by the Grant
  Handbook). In addition, for a period of two months in the summers of 2010 and 2011,
  the grantee employed approximately 20 individuals per year as interns. We reviewed
  time and payroll records and tested 100 percent of the labor costs charged to the grant for
  four pay periods and labor costs charged to the grant by four interns for two pay periods
  during each of the summers. We found that the labor costs were accurately recorded,
  properly authorized, and adequately supported by personnel activity reports.

          In addition to the labor costs, HudsonAlpha also claimed fringe benefit costs (e.g.,
  social security; unemployment tax; and medical, life, and disability insurance) for the
  employees. HudsonAlpha calculated these costs using a flat rate applied to its underlying

  10
       The term “drawdown” refers to the action in which the grantee withdraws funds from the Department of
       Health and Human Services’ Payment Management System, the system NASA and other Federal
       agencies use to administer their grant programs.



REPORT NO. IG-12-019                                                                                          7
                                                                                                          RESULTS



    labor costs rather than tracking and identifying its actual fringe benefit costs for each
    employee and charging those as direct costs. However, this was not consistent with
    HudsonAlpha’s indirect cost rate agreement with the Department of Health and Human
    Services (HHS), its cognizant agency. 11 We computed HudsonAlpha’s actual fringe
    benefit costs during the grant period, computed the percentage that the fringe benefit
    costs were to the employee’s total annual salary, and applied this rate to the actual direct
    labor costs charged to the grant to derive our estimate of the actual fringe benefit costs
    allocable to the grant.

           A comparison of the fringe benefit costs claimed by HudsonAlpha and our
    computation of the fringe benefit costs disclosed that the actual fringe benefit costs
    incurred exceeded the amount claimed by $10,398 (as shown in Table 1).

                               Table 1. Comparison of Claimed and Actual Fringe
                                                Benefit Costs
                              Claimed                                         $28,244
                              Actual                                          $38,642
                                           Underclaimed                      ($10,398)


            Non-Personnel Expenditures. We reviewed 61 non-personnel transactions
    totaling $182,541 that HudsonAlpha charged to the NASA grant as direct costs. These
    transactions consisted of expenditures for travel, materials, consultants, and contractors.
    We compared the transactions to the NASA-approved budget and traced the transactions
    to supporting documentation to determine whether the expenditures were allowable under
    the terms and conditions of the grant award; properly authorized, classified, and
    supported; and allocable to the grant. Our testing revealed no exceptions.

            Additionally, the grant award permitted the recovery of HudsonAlpha’s indirect
    costs. At the time of grant award, HudsonAlpha’s indirect rate agreement with HHS
    indicated that a provisional rate of 60 percent was effective, until amended, for fiscal year
    2010. 12 However, in a subsequent agreement this rate was ultimately reduced to 52
    percent for fiscal years 2010 and 2011. Nevertheless, HudsonAlpha claimed indirect
    costs at a rate of 60 percent for the entire grant period.

           Based on our discussions with representatives from both the grantee and NSSC,
    HudsonAlpha officials believed that the 60 percent rate approved in the grant budget
    would remain the same throughout the grant period. Additionally, NSSC representatives

    11
         OMB Circular A-122, Appendix A, defines a cognizant agency as the Federal agency responsible for
         negotiating and approving indirect cost rates for a nonprofit organization on behalf of all Federal
         agencies.
    12
         OMB Circular A-122, Appendix A, defines provisional rate as a temporary indirect cost rate applicable
         to a specified period that is used for funding, interim reimbursement, and reporting indirect costs on
         awards pending the establishment of a final rate for the period.



8                                                                                        REPORT NO. IG-12-019
RESULTS



  stated that grant recipients’ proposed rates are checked for compliance with the
  negotiated rates in effect at the time of award but that NSSC only makes adjustments to
  reflect final rates for cost-reimbursable contracts and not grants. However, by definition
  a provisional rate is only a temporary rate until a final rate is established.

          We computed the total indirect costs that should have been claimed based on the
  final and predetermined rate of 52 percent for fiscal years 2010 and 2011, respectively. 13
  By applying the provisional rate HudsonAlpha claimed $44,567 more in indirect costs
  than allowable, as shown in Table 2.

                                   Table 2. Indirect Costs Claimed versus Final
                                               Claimed           Final         Questioned Cost
                      Indirect Base             $557,394         $557,394
                      Indirect Rate                  60%               52%
                      Indirect Costs            $334,412         $289,845                 $44,567


          NASA policy does not direct grant officers to obtain and review subsequent
  indirect rate agreements to ascertain if adjustments to indirect cost rates are required.
  Further, a procedure does not exist in the NSSC Service Delivery Guide to analyze the
  rate used to claim indirect costs against the grantee’s negotiated indirect cost rate
  agreement to ensure that indirect costs were claimed appropriately and adjustments, if
  necessary, are made during the grant closeout process.


Grant Reporting

  The Grant Handbook requires grantees to submit annual and final performance reports
  and quarterly and final Federal Financial Reports to NASA. Performance reports provide
  information on the progress of the work effort and the financial reports show the
  grantee’s expenditures and drawdowns for the reporting period.

  Performance Reports. The Grant Handbook and the terms of the grant required
  HudsonAlpha to submit an interim and final performance report to NASA 60 days prior
  to the grant anniversary date and no later than 90 days after the end of the performance
  period, respectively. The NASA Technical Officer waived the requirement for an interim
  report because the duration of the grant was only 13 months and the final report was
  required to be submitted shortly thereafter. The grantee submitted the final report within
  the required timeframe.


  13
       OMB Circular A-122, Appendix A, defines predetermined rate as an indirect cost rate applicable to a
       specified current or future period that is based on an estimate of the costs to be incurred during that
       period and is not subject to adjustment.



REPORT NO. IG-12-019                                                                                             9
                                                                                             RESULTS



     Financial Reports. The Grant Handbook requires grantees to submit quarterly financial
     reports to the HHS Payment Management System (PMS) within 30 days following the
     end of each Federal fiscal quarter (December 31, March 31, June 30, and September 30).
     We analyzed HudsonAlpha’s quarterly financial reports and determined they were
     submitted within the required timeframes and accurately reflected the expenditures and
     drawdowns for the quarter, as well as the cumulative amounts.

     Grantees also are required to submit a final financial report within 90 days of the award’s
     completion date. While the quarterly financial reports are submitted electronically
     through PMS, the Grant Handbook stipulates that the final financial report be submitted
     in paper form and annotated as “Final.” The Grant Handbook further specifies that the
     final financial report be submitted to the Financial Management Office, with a copy to
     the NASA Grant Officer. The award letter and a subsequent reminder letter to the
     grantee reiterate the report submission requirements.

     The NSSC Service Delivery Guide, “Agency-Wide Contract Closeout Services,” outlines
     the closeout process and the party responsible for each action in the process. After the
     transfer of the grant file to the closeout contractor, the next key steps in the process are
     receipt of the final financial report from the grantee and receipt of the ensuing
     reconciliation of the financial report with the PMS account. The receipt of the
     reconciliation triggers the closing of the grantee’s PMS account, which blocks further
     drawdowns from the account and allows deobligation of any excess funds.

             Late Filing of the Final Financial Report. HudsonAlpha submitted a financial
     report through PMS for the quarter ended September 30, 2011. HudsonAlpha personnel
     told us that they intended this report to be the final financial report and that they tried to
     designate the report as such in the PMS system. They said they contacted PMS and were
     advised that PMS did not have the capability to designate the report as final but that the
     granting agency would know the report was the final based on the grant expiration and
     the quarter end date. Although HudsonAlpha submitted another financial report through
     PMS at the end of the next quarter, again intending it as the “final” report, it did not
     submit a paper copy annotated as “Final” to the Grant Officer as required by the Grant
     Handbook and NASA did not recognize the reports submitted to PMS as the required
     final report.

             However, neither NSSC nor its contractor took timely steps to obtain a final
     report from HudsonAlpha. Indeed, NSSC and its contractor were not even aware that
     HudsonAlpha had not submitted the final report until we inquired about the report in
     March 2012. NSSC’s contractor indicated that a report from the grant closeout tracking
     system would have flagged the outstanding financial report, however, at the time we
     announced our audit in December 2011, NSSC had not generated such a report.
     Moreover, NSSC representatives informed us that it is NSSC practice to suspend the
     closeout process when the Office of Inspector General (OIG) or Government
     Accountability Office (GAO) request a copy of the grant file during the course of an
     audit. Accordingly, NSSC suspended the closeout process for the HudsonAlpha grant in



10                                                                            REPORT NO. IG-12-019
RESULTS



   December 2011. Following our inquiry, HudsonAlpha submitted the final financial
   report to NSSC in mid-March 2012.

           Closeout Process Was Delayed. According to the Grant Handbook, NASA’s
   goal is to complete the grant closeout process within 180 days of the grant’s expiration.
   HudsonAlpha’s failure to timely file the final financial report affected NASA’s grant
   closeout process, and combined with other events, prolonged the closeout process long
   past the 180 day target.

           According to NSSC’s contractor, they perform the steps in the closeout process in
   a particular order, from which they never deviate. In the process, receipt and
   reconciliation of the final financial report is completed before NSSC takes steps to block
   further drawdowns, deobligate any undisbursed funds, and close the grant account in
   PMS. Until the account has been closed in PMS, grantees have the ability to draw down
   any remaining funds up to the authorized grant amount.

          In the case of HudsonAlpha, non-receipt of the final financial report meant that
   NSSC had not taken the subsequent steps in the closeout process at the time we
   announced our audit and NSSC suspended the closeout process in December 2011.
   Accordingly, the PMS grant account remained open until well into 2012. Shortly before
   we issued our draft report on June 13, 2012, NASA informed us that once HudsonAlpha
   submitted the final report in March 2012 NSSC lifted the closeout suspension and the
   remaining undisbursed funds of $17,596 were deobligated in NASA’s accounting system
   and PMS.

           Although HudsonAlpha did not draw down funds while the closeout process was
   suspended, NASA’s failure to note the missing financial report and the resulting delay in
   the closeout process highlighted an internal control weakness future grantees could
   exploit. Furthermore, because NASA incurs service fees for all open accounts in PMS
   regardless of account balance, it is in the Agency’s interest to close accounts as soon as
   practicable after the end of the grant period.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. We recommended that the Assistant Administrator for Procurement
require grant officers to obtain the grantee’s negotiated indirect cost rate agreements for
each year of the grant if, at the time of award, the grantee has a negotiated rate that is subject
to adjustment.

   Management’s Response. The Assistant Administrator concurred, stating that the Grant
   Handbook will be revised to require grant officers to obtain negotiated indirect cost rate
   agreements for grantees whose rates are subject to adjustment.




REPORT NO. IG-12-019                                                                                 11
                                                                                            RESULTS



     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the proposed actions.

Recommendation 2. We recommended that the Assistant Administrator for Procurement
implement or enhance training programs for procurement personnel to develop or reinforce
their understanding of negotiated indirect cost rates as they relate to grants.

     Management’s Response. The Assistant Administrator concurred, stating that material
     related to negotiated indirect cost rates will be added to an existing Office of Procurement
     training course.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the proposed actions.

Recommendation 3. We recommended that the Assistant Administrator for Procurement
discontinue the practice of routinely suspending the closeout process when a grant is the
subject of an OIG or GAO audit.

     Management’s Response. The Assistant Administrator concurred, stating that the Grant
     Handbook does not require the closeout process be suspended when a grant is the subject
     of an audit, and that he will advise the NSSC to review its closeout procedures and
     remove any requirements or guidance that conflicts with the Grant Handbook’s
     requirement.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the proposed actions.

Recommendation 4. We recommended that the Executive Director of the NSSC ensure
that HudsonAlpha claims fringe benefits in accordance with the terms of its negotiated rate
agreement and remedy the difference between the amounts claimed and the costs incurred
by HudsonAlpha.

     Management’s Response. The Executive Director concurred, recognizing that
     HudsonAlpha may have undercharged their fringe benefit costs and over billed other
     indirect costs based on the application of provisional rather than final indirect rates. He
     stated that the NSSC will verify that HudsonAlpha’s final SF 425 reflects all costs
     incurred and utilizes the final negotiated indirect rates and will request HudsonAlpha
     submit an amended form if necessary.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the proposed actions.




12                                                                           REPORT NO. IG-12-019
RESULTS



Recommendation 5. We recommended that the Executive Director of the NSSC remedy
the indirect costs claimed in excess of HudsonAlpha’s approved final and predetermined
indirect cost rates for fiscal years 2010 and 2011, respectively.

   Management’s Response. The Executive Director concurred, recognizing that
   HudsonAlpha may have used provisional rather than final indirect rates. The NSSC will
   verify that HudsonAlpha’s final SF 425 reflects the final negotiated indirect rates and will
   request HudsonAlpha submit an amended form if changes are required.

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive; therefore, the recommendation is resolved and will be closed upon
   completion and verification of the proposed actions.

Recommendation 6. We recommended that the Executive Director of the NSSC establish
procedures to analyze indirect costs being claimed against the grantees’ negotiated indirect
cost rate agreement and update the NSSC Service Delivery Guide, “Agency-Wide Contract
Closeout Services,” accordingly.

   Management’s Response. The Executive Director concurred, stating that the NSSC will
   direct the closeout contractor to adjust its standard closeout procedures so that final SF
   425s will be obtained and dispositioned after final indirect rates have been determined for
   those grants and cooperative agreements for which provisional indirect rates were used.
   In addition, the closeout contractor will be required to obtain a certification from grantees
   stating that their final SF 425 reflects all costs incurred and final negotiated indirect rates.
   The service delivery guide will be updated to reflect these changes when the new
   Agency-wide contract closeout and procurement support services contract is executed.

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive; therefore, the recommendation is resolved and will be closed upon
   completion and verification of the proposed actions.

Recommendation 7. We recommended that the Executive Director of the NSSC ensure
that grantees notify NASA of changes in their negotiated indirect cost rates and submit
adjustments when warranted.

   Management’s Response. The Executive Director did not concur, stating that grantees
   are required to submit indirect cost rate proposals to their cognizant Federal audit agency,
   which in turn is responsible for sending negotiated rate agreements to the other Federal
   agencies that require this information. However, he stated that the NSSC will provide
   each cognizant agency with current points of contact and mailing information to ensure
   the NSSC receives copies of the rate agreements. In addition, the Assistant
   Administrator for Procurement agreed to require grant officers to obtain grantees’
   negotiated indirect cost rate agreements.




REPORT NO. IG-12-019                                                                                  13
                                                                                       RESULTS



     Evaluation of Management’s Response. We believe these proposed actions satisfy the
     intent of our recommendation and therefore consider the recommendation resolved. We
     will close the recommendation upon completion and verification of the proposed actions.

Recommendation 8. We recommended that the Executive Director of the NSSC establish
controls to identify when and why a grant is not proceeding through the closeout process in
a timely manner so that necessary actions can be taken and update the NSSC Service
Delivery Guide, “Agency-Wide Contract Closeout Services,” accordingly.

     Management’s Response. The Executive Director of NSSC partially concurred, stating
     that the NSSC’s closeout contractor has developed a weekly report to identify any grant
     or cooperative agreement with past due deliverables. However, he indicated that the
     NSSC is not planning to update the related service delivery guide because the closeout
     process has not changed as a result of the adoption of this additional control.

     Evaluation of Management’s Response. The development of this weekly report is
     responsive to our recommendation. However, we believe this new control activity should
     be documented to ensure it continues to be performed on a recurring basis. Accordingly,
     the recommendation remains unresolved pending further discussions with the Agency.




14                                                                       REPORT NO. IG-12-019
APPENDIXES




                                                                           APPENDIX A


Scope and Methodology

  We performed this audit from December 2011 through August 2012 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  Our overall objective was to determine whether HudsonAlpha used NASA’s grant funds
  for their intended purpose and whether the costs associated with the grant were allowable,
  reasonable, and in accordance with applicable laws, regulations, guidelines, and the terms
  and conditions of the grants. Specifically, we reviewed HudsonAlpha’s (1) program
  performance and accomplishments; (2) budget management and controls; (3) accounting
  and internal control environment; and (4) reporting. To accomplish our objective, we
  interviewed key personnel at NSSC and HudsonAlpha involved in grant administration,
  management, and award processes. We also identified and reviewed relevant Federal
  laws and regulations, NASA policies, procedures, and requirements. The methodology
  we used for the review is described below.

  Grant Selection. We judgmentally selected the HudsonAlpha grant for substantive
  testing based on the dollar value, number of supplements, and geographic proximity to a
  NASA Center. The grant was funded as a result of a congressional earmark and was
  awarded by NSSC.

  Grant Award File Documentation. We reviewed grant award documentation including
  proposal, budget, technical review reports, and summary financial reporting
  documentation. We interviewed NASA grant and technical officers responsible for the
  grant examined during the audit.

  Grantee Site Visits. We visited the grantee’s location in Huntsville, Alabama. We
  interviewed grantee officials and performed substantive transaction testing necessary to
  validate whether NASA grant funds were used for their intended purpose while assessing
  the sufficiency of grantee performance.

  Testing Conducted. We tested compliance with what we considered the most important
  conditions of the grant. Unless otherwise stated in our report, the criteria we audited
  against included Federal requirements, the Grant Handbook, and the terms and conditions
  of the grant. In conducting our audit, we used a judgmental sampling design. This
  nonstatistical sampling design does not allow projection of the test results to the universe


REPORT NO. IG-12-019                                                                             15
                                                                                      APPENDIX A



     from which the samples were selected. Our sample was selected from the project level
     detail from the grantee’s accounting system and amounted to $565,133 or 57.5 percent of
     the $982,406 claimed against the grant. We tested the grantee’s:

        •   Program Performance and Accomplishments to determine whether the grantee
            met the grant objectives and whether the grantee collected data and developed
            performance measures to assess accomplishment of the intended objectives.

        •   Budget Management and Control to determine the amounts budgeted and the
            actual costs for each approved cost category and to determine whether the grantee
            deviated from the approved budget and, if so, whether the grantee received the
            necessary approval.

        •   Accounting and Internal Controls to determine whether the grantee had
            sufficient accounting and internal controls to identify and report expenditures and
            reimbursements. This included testing:

                o Grant Drawdowns to determine whether grant drawdowns were
                  adequately supported and whether the grantee was managing grant
                  receipts in accordance with Federal requirements; and

                o Grant Expenditures to determine whether the expenditures were
                  allowable under the terms and conditions of the grant award; properly
                  authorized, classified, and supported; and allocable to the grant.

        •   Grant Reporting to determine whether the required reports were submitted on
            time and accurately reflected grant activity.

     We also determined through limited testing that the grantee did not generate or receive
     program income, did not have any property or equipment that was reportable to NASA,
     was not required to contribute any local matching funds, and did not have any
     subgrantees to monitor. We, therefore, performed no testing in these areas.

     Federal Laws, Regulations, Policies, and Requirements. We identified and reviewed
     the following criteria as applicable to our audit objectives:

     Code of Federal Regulations (C.F.R.), Title 2, Part 215, “Uniform Administrative
     Requirements for Grants and Agreements with Institutions of Higher Education,
     Hospitals and Other Non-Profit Organizations (OMB Circular A-110),” January 1, 2010

     2 C.F.R. Part 230, “Cost Principles for Non-Profit Organizations (OMB Circular
     A-122),” January 1, 2010

     14 C.F.R. Part 1260, “Grants and Cooperative Agreements,” Subpart A, “General,”
     January 1, 2010




16                                                                         REPORT NO. IG-12-019
APPENDIX A



  14 C.F.R. Part 1260, Subpart B, “Uniform Administrative Requirements for Grants and
  Cooperative Agreements with Institutions of Higher Education, Hospitals, and Other
  Non-Profit Organizations,” January 1, 2010

  OMB Circular A-133, “Audits of States, Local Governments, and Non-Profit
  Organizations,” June 26, 2007

  NASA Procedural Requirements (NPR) 5800.1, “Grant and Cooperative Agreement
  Handbook,” Section A, June 13, 2008, and Section B, April 20, 2007

  NPR 9680.1A, “NASA’s Management of Grants and Cooperative Agreements,”
  November 10, 2011

  Grant Information Circular 10-01, “Guidance on Processing Congressionally Directed
  Items (Earmarks) Awarded As Grants or Cooperative Agreements for Fiscal Year (FY)
  2010,” March 23, 2010

  NSSC-PR-SDG-0007, “NASA Shared Services Center Grant and Cooperative
  Agreement Service Delivery Guide,” January 10, 2007

  NSSC-PR-SDG-0009, “NASA Shared Services Center Service Delivery Guide: Agency-
  Wide Contract Closeout Services,” November 24, 2008

  Use of Computer-Processed Data. We used NASA computer processed data to
  determine the universe of NASA grants and to provide financial data on the grant being
  audited. We also used computer processed data from the HHS PMS to obtain grant
  drawdown and expenditure data for the grantee. Additionally, we used computer-
  processed data extracted from the grantee’s accounting system to determine the
  expenditure transactions charged to the grant. Although we did not independently verify
  the reliability of all this information, we compared it with other available supporting
  documents to determine data consistency and reasonableness. From these efforts, we
  believe the information we obtained is sufficiently reliable for this report.


Review of Internal Controls

  We reviewed internal controls for the grantee’s administration and management of grants,
  including the adequacy of HudsonAlpha’s policies and procedures. The control
  weaknesses we identified are discussed in this report. Our recommendations, if
  implemented, will correct the identified control weaknesses.




REPORT NO. IG-12-019                                                                         17
                                                                                    APPENDIX A



Prior Coverage

     During the last 5 years NASA and the Government Accountability Office have issued the
     following reports and testimony that are of particular relevance to the subject of this
     report. Unrestricted reports can be accessed over the Internet at
     http://oig.nasa.gov/audits/reports/FY12/ and http://www.gao.gov.

     NASA Office of Inspector General

     “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011)

     “Final Memorandum on Review of Wheeling Jesuit University Cost Proposals”
     (IG-09-020-Redacted, August 3, 2009)

     “Final Memorandum on Audit of NASA Education and Training Grants” (IG-07-029-R,
     September 18, 2007)

     Government Accountability Office

     “Federal Grants: Improvements Needed in Oversight and Accountability Processes”
     (GAO-11-773T, June 23, 2011)

     “Tracking Undisbursed Balances in Expired Grant Accounts Could Facilitate the
     Reallocation of Scarce Resources or the Return of Funding to the Treasury,” included in
     Section II (page 286) of “Opportunities to Reduce Potential Duplication in Government
     Programs, Save Tax Dollars, and Enhance Revenue” (GAO-11-318SP, March 2011)

     “Department of Education Could Improve Its Processes with Greater Focus On Assessing
     Risks, Acquiring Financial Skills, and Sharing Information” (GAO-10-57, November 19,
     2009)

     “Grants Management: Attention Needed to Address Undisbursed Balances in Expired
     Grant Accounts” (GAO-08-432, August 29, 2008)




18                                                                        REPORT NO. IG-12-019
APPENDIX B




                       AGENCY COMMENTS




REPORT NO. IG-12-019                     19
              APPENDIX B




20   REPORT NO. IG-12-019
APPENDIX B




REPORT NO. IG-12-019   21
              APPENDIX B




22   REPORT NO. IG-12-019
APPENDIX C




                       GRANTEE COMMENTS




REPORT NO. IG-12-019                      23
                                                                               APPENDIX D




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Associate Administrator of Education
     Assistant Administrator for Procurement
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Marshall Space Flight Center
     Executive Director, NASA Shared Services Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Financial Management and Assurance
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




24                                                                    REPORT NO. IG-12-019
Major Contributors to the Report:
   Mark Jenson, Director, Financial Management Directorate
   Regina Dull, Project Manager
   Aleisha Fisher, Senior Auditor
   Frank Mazurek, Associate Counsel




REPORT NO. IG-12-019                                         25
                                                                                       AUGUST 3, 2012
                                                                        REPORT No. IG-12-019




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
